JULY 18, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 AUDIT OF SELECTED NASA CONFERENCES IN FISCAL

                      YEARS 2011-2012




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-020 (ASSIGNMENT NO. A-12-016-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FY           Fiscal Year
IT           Information Technology
NF           NASA Form
NIA          National Institute of Aerospace Foundation
NID          NASA Interim Directive
NPR          NASA Procedural Requirements
OCFO         Office of the Chief Financial Officer
OGC          Office of the General Counsel
OIG          Office of Inspector General
OMB          Office of Management and Budget
PM           Project Management
WAG          Widely Attended Gathering


                                                          REPORT NO. IG-13-020
JULY 18, 2013




                                                                                           OVERVIEW

           AUDIT OF SELECTED NASA CONFERENCES IN FISCAL
                                       YEARS 2011-2012

                                                                                             The Issue

  NASA hosts, sponsors, and participates in conferences attended by contractors, industry
  partners, employees of other Federal agencies, and the public. From October 2010
  through September 2012, NASA sponsored or co-sponsored 43 conferences for which the
  associated costs per conference exceeded $20,000. Overall, NASA reported spending a
  total of $8.6 million for these 43 conferences during this 2-year period.1

  If not properly planned, conferences can be an inefficient or ineffective use of Federal
  resources. For example, to make cost-effective decisions between potential conference
  sites agencies need to gather accurate cost comparisons. Careful planning and adherence
  to government-wide and agency-specific rules are especially important in this period of
  fiscal austerity.

  For this audit, we reviewed four conferences on which NASA expended more than
  $500,000 – the 2012 PM (Project Management) Challenge in Orlando, Florida; the 2011
  IT (Information Technology) Summit in San Francisco, California; the 2011 PM
  Challenge in Long Beach, California; and the 2010 International Symposium on the
  A-Train Satellite Constellation in New Orleans, Louisiana. We performed a detailed
  examination of the 2011 IT Summit, including the planning process; site selection;
  transportation, lodging, meal, and other costs; and funding relationships with external
  partners and identified a series of issues that required further review. We then examined
  the other three conferences for similar issues. Details of the audit’s scope and
  methodology are in Appendix A.




  1
      Reported costs include NASA employee travel, facility rental, support contracts, food and beverage, and
      audiovisual support.



REPORT NO. IG-13-020
                                                                                                        OVERVIEW



     Results

     NASA has improved its conference policies and procedures in response to a series of
     Office of Inspector General audit reports and increased scrutiny and guidance from
     Congress and the Office of Management and Budget (OMB).2 For example, in July 2010
     NASA required conference planners to provide additional justification if the cost of
     meals provided at a conference will exceed General Services Administration-approved
     per diem rates and in February 2013 limited Agency sponsorship only to conferences that
     are mission critical. However, in this review we identified further needed improvements
     in Agency guidance related to partner contributions, valuation of meals for purposes of
     the federal gift rules, and tracking and reporting conference costs.

 Improvements Needed to Policies and Procedures Relating to
   Partner Contributions

     For the 2011 IT Summit, the National Institute of Aerospace Foundation (NIA or
     Foundation) collected approximately $322,000 in donations from vendors to coordinate
     an exhibit hall in which vendors demonstrated their products and services to conference
     attendees. In addition, these donations were used to pay for two receptions and two
     luncheons at the Summit and wireless internet services.3 The Foundation also collected
     in-kind donations used at the conference including a media wall and handheld media
     devices.

     We noted several issues with NASA’s handling of NIA’s contributions. Specifically, we
     question whether NASA augmented its appropriation by accepting donations from the
     Foundation without following Agency procedures governing acceptance of gifts from
     outside parties. In addition, we found that conference planners inappropriately excluded
     service costs and tax associated with an awards luncheon paid for by the NIA when
     calculating the value of the meal to the NASA employees who attended. As a result, the
     lunch did not fall within the exception to federal ethics rules allowing the acceptance of
     gifts with a value of $20 or less.

     NASA May Have Augmented its Appropriations at the 2011 IT Summit. Donations
     of goods and services by outside entities can lead to an augmentation of an agency’s
     appropriations and a violation of the Antideficiency Act unless they are authorized under
     a gift acceptance statute or other statutory authority. NASA has authority to accept gifts

     2
         NASA OIG, “Final Memorandum on the Analysis of Fiscal Year 2009 NASA-Sponsored Conferences,”
         (IG-10-009, March 2010); “Opportunities to Improve the Management of the Space Flight Awareness
         Honoree Launch Conference Event,” (IG-09-017, July 2009); “Required Registration Fee for the 2008
         NASA General Counsel Conference,” (IG-09-010, January 2009); and “NASA’s Conference Planning
         Process Needs Improvement” (IG-09-002, October 2008).
     3
         At one event, the NIA Foundation hired and paid for professional entertainment, including a group that
         performed a “flash mob” dance sequence. NIA paid $750 for the dance group.




ii                                                                                        REPORT NO. IG-13-020
OVERVIEW



  and donations of services, money, and property under the National Aeronautics and
  Space Act of 1958. Pursuant to this authority, NASA has established policies related to
  the acceptance of monetary gifts and property. At the time NASA was planning the 2011
  IT Summit, Agency policy directed conference planners to consult with the NASA Office
  of the General Counsel (OGC) and the Office of the Chief Financial Officer (OCFO)
  about potential contributions from outside entities to NASA events, but did not clearly
  provide that consultation was required for events such as the luncheons and receptions
  NIA paid for at the 2011 IT Summit.

  The 2011 IT Summit steering committee members did not consult with the OGC or
  OCFO about NIA’s contributions to the Summit and therefore did not follow NASA
  policy regarding the acceptance of gifts from outside entities. We believe this occurred
  because the steering committee members viewed the awards luncheon and other meals
  and receptions NIA paid for as NIA events rather than NASA events and therefore did
  not interpret NASA policy to require consultation under such circumstances. In January
  2013, NASA clarified its policy to make clear that the consultation requirement applies to
  “complimentary activities” like the NIA-sponsored events.4

  Receptions and Meals Paid for by Outside Entities Present Opportunities for
  Inappropriate Gift Acceptance by NASA Employees. With certain limited exceptions,
  NASA employees may not accept gifts from prohibited sources or gifts given as a result
  of their official position. Generally, employees may attend such events free of charge
  only if the market value of attending is $20 or less or the event qualifies as a “widely
  attended gathering” (WAG), a determination that is made by NASA ethics officials.
  Accordingly, co-located events sponsored by outside entities that include meals and
  receptions can raise gift issues for NASA employees.

  The NIA Foundation paid for four meals and receptions at the 2011 IT Summit with
  funds it raised from outside entities, including an awards luncheon. Agency ethics
  officials determined that two of these events qualified for the WAG exception, but that
  the luncheon and another event did not and that therefore NASA employees could attend
  these events free of charge only if the value to the employee was $20 or less. In the
  submission conference planners made to OGC for the WAG determination, they listed
  the cost of the luncheon at approximately $53 per person, which included food and
  beverage costs, service charges, and tax.

  To determine the value of gifts from outside sources, employees are required to use
  “market value,” which is defined in federal regulations as “the retail cost the employee
  would incur to purchase the gift.”5 The standard questions OGC poses to evaluate events
  inquire about the per-person cost of food and refreshments but do not reference the
  “market value” rule.


  4
      NID 9700.1, “NASA Conference Approval and Reporting,” Section 7.4.6, January 2013.
  5
      5 C.F.R. § 2635.203(c).



REPORT NO. IG-13-020                                                                           iii
                                                                                                       OVERVIEW



     After OGC advised planners that the awards luncheon did not qualify as a WAG, NIA
     Foundation personnel contacted the hotel and requested adjustments to the menu. This
     request resulted in a revised cost estimate of $45 per person, which the hotel divided into
     $22.50 for food and beverage costs and $22.50 for service charges and tax. NASA’s
     contract planner subsequently contacted the hotel and further negotiated the
     apportionment of the charges, resulting in $19.95 for food and beverage and $25.05 for
     tax and service charges. Based on this information, a conference steering committee
     member sent an e-mail to an OGC attorney noting that the “menu had been altered to a
     gift valued at $19.95 per person.” This e-mail did not mention that the hotel would also
     be charging $25.05 in tax and service fees per attendee for each meal. OGC accepted the
     $19.95 figure without requesting any additional information.

     We found that NASA conference planners and NIA Foundation personnel inappropriately
     excluded the tax and service charges from the value of the luncheon. Although,
     conference planners reported all costs associated with the meal to OGC when seeking the
     WAG determination, they submitted only the revised costs associated with the food and
     beverage component of the meal when the issue was whether the value met the $20 gift
     threshold.

     Based on the invoice the NIA Foundation paid, the retail cost of the luncheon was $45
     per person and therefore the event did not fall within the gift rule exception. However,
     we do not fault the luncheon attendees who relied in good faith upon the OGC’s advice
     that they could attend the event consistent with their ethical obligations. Rather, we fault
     the planning committee for not providing full cost information to OGC and OGC
     attorneys for not questioning the basis for the substantial reduction in the cost of the
     meal.

Conference Guidance Needs Updating to Accurately Report and
  Control Costs

     We found that Agency officials underreported costs associated with the 2011 IT Summit
     by failing to include the costs NASA paid for contractors to attend the Summit and
     certain other miscellaneous costs. We also found that the Agency’s cost tracking
     processes cannot account for all conference-related costs and that planners did not
     consistently conduct required cost comparisons of possible conference sites. Finally, we
     found significant differences between planned and actual costs for the 2011 IT Summit.

     Reported Conference Costs Were Underreported. NASA estimated the 2011 IT
     Summit would cost $1,176,307, and reported actual costs of $1,291,889, a difference of
     approximately $116,000. We found that NASA did not include in the estimated cost
     figure $548,209 incurred by contractors who attended the event and billed NASA for
     their attendance and travel costs or an additional $128,439 in miscellaneous expenses.6

     6
         We requested NASA provide the costs of its contractors’ attendance at the conference. The estimate
         provided included travel and labor costs.



iv                                                                                      REPORT NO. IG-13-020
OVERVIEW



  Including these expenses raises the total cost of the 2011 IT Summit to $1.97 million, 52
  percent more than the amount reported.

  NASA conference planners reported that 606 contractors and 489 civil servants attended
  the 2011 IT Summit. Federal regulations define conference costs as “all direct and
  indirect conference costs paid by the Government, whether paid directly by agencies or
  reimbursed by agencies to travelers or others associated with the conference.” However,
  NASA guidance does not require planners to include contractor costs, except for the costs
  of conference support services contractors. According to NASA, system limitations and
  the expense of reporting this information makes it difficult for conference planners to
  collect and report such costs. However, when large numbers of contactors attend a
  NASA conference – as was the case for the 2011 IT Summit where the OCFO estimates
  that the total labor and travel costs billed to NASA by contractor attendees was
  $548,209 – exclusion of this information masks the full cost borne by NASA to hold the
  conference.

  We found that the cost of 12 planning trips was not included in the planned and reported
  costs for the 2011 IT Summit. The trips, totaling $63,844, included one scouting trip and
  several other trips to San Francisco; Washington, D.C.; and the Jet Propulsion Laboratory
  in Pasadena, California. NASA’s conference guidance does not address either the
  appropriate number of planning trips or whether the cost of such trips should be included
  in the conference cost totals. From our perspective, given the availability of telephone
  and video conferencing, 12 planning trips are excessive and we believe that the Agency
  would benefit from improved guidance on this issue.

  In addition, NASA did not include in its reported costs for the 2011 IT Summit $62,589
  in costs associated with the exhibit hall and for the 22 Office of the Chief Information
  Officer working group meetings that followed the formal conference. These costs were
  not reported due to the manual process used by the 2011 IT Summit steering committee
  to collect cost information. Manual processes to collect costs are inefficient and lack
  controls to determine completeness and accuracy and increases the chances of incomplete
  reporting.

  In an effort to respond to our concern about exclusion of these costs, in January 2013
  NASA issued an interim directive that provides examples of “other costs” and directs
  employees to use a particular code to track and collect non-travel costs within the
  Agency’s financial system.

  Significant Differences between Planned and Actual Expenses. We also found that
  NASA had no formal process in place to evaluate significant increases in planned costs
  once initial projected conference costs are approved. On January 31, 2013, NASA issued
  interim guidance requiring re-approval of planned expenses when total costs increase by
  more than 25 percent from the approved estimate.




REPORT NO. IG-13-020                                                                          v
                                                                                         OVERVIEW



     For the 2011 IT Summit, NASA reported actual costs of $1.29 million, which represents
     a 10 percent increase from the approved estimated cost. While the overall increase was
     below 25 percent, we found significant increases in actual audiovisual expenses and
     conference planner fees were offset by overestimated travel costs. Having a rule that
     requires reauthorization only when total costs increase by 25 percent or more may allow
     significant increases in certain expense categories to escape higher-level review.

     Planners Failed to Compare Potential Conference Sites. Finally, we found that for
     three of the conferences we examined NASA eliminated alternative sites from
     consideration prior to completion of a cost comparison. For example, for the 2011 IT
     Summit contracted conference planners said they sent a call for proposal to six facilities
     in the San Francisco area, including Ames Research Center. However, planners were
     unable to provide us with any documentation of this process. For a variety of reasons,
     planners eliminated from consideration all sites but the Marriott Marquis where the
     conference was held. Planners made no additional efforts to obtain quotes from sites in
     either San Francisco or elsewhere. We perceived a similar lack of diligent effort in the
     sites selection processes for the 2012 PM Challenge and the 2010 International
     Symposium on the A-Train Satellite Constellation. In both cases, planners eliminated
     locations from consideration without comparing pertinent costs for more than one
     conference site. Unless they obtain cost estimates from more than one potential
     conference site, NASA conference planners cannot ensure they hold conferences at the
     most cost-effective location.

Other Matters

     At the 2011 IT Summit, the Marriott Marquis offered and NASA accepted one
     complimentary room for every 50 rooms rented, 25 room upgrades at the government
     rate, and complimentary use of the hotel’s presidential suite. The Chief Information
     Officer (CIO) stayed in the presidential suite and other senior NASA managers,
     conference planners and speakers, and individuals who volunteered to help at the
     conference stayed in the other free and upgraded rooms. The presidential suite was also
     used for meetings hosted by the CIO and members of the steering committee.

     We found no evidence that NASA incurred any additional expense by accepting the
     upgraded and complimentary rooms. Moreover, we understand that hotels routinely
     provide such rooms at no cost to customers who hold large conferences at their facilities.
     The hotels that hosted the 2012 PM Challenge and the 2010 International Symposium on
     the A-Train Satellite Constellation offered similar room concessions.




vi                                                                          REPORT NO. IG-13-020
OVERVIEW



                                                                 Management Action

  To improve the conduct of NASA-sponsored conferences, we recommended that the
  Chief Financial Officer take the following actions:

    •   Improve conference guidance regarding the process for establishing partnering
        relationships and the appropriate roles of partners in planning and managing a
        conference to limit the risk of an augmentation of appropriated funds.

    •   Work with the Office of the General Counsel to determine whether any NIA
        Foundation contributions to the 2011 IT Summit inappropriately augmented
        NASA’s appropriations and address any issues identified.

    •   Enhance conference guidance by:

         o   providing criteria for and examples of acceptable planning and conference
             costs, including whether travel costs for site selection scouting trips, off-site
             planning meetings, or conference “dry-runs” are acceptable, and requiring
             these estimated and actual costs be included on the NF 1784 and NF 1785;

         o   requiring increases of 10 percent or more in specific cost categories and above
             a certain threshold be approved by appropriate officials; and

         o   requiring conference planners to obtain quotes from at least three conference
             sites and retain this documentation from these cost comparisons.

    •   Develop a methodology for gathering costs directly billed to NASA for contractor
        employees who attend NASA-sponsored conferences with significant contractor
        attendance.
  Finally, we recommended that the General Counsel update the standard questions used to
  evaluate WAG requests to make clear that gifts are valued at the retail cost to the
  employee and that for meals this figure includes food and beverages as well as applicable
  tax and service charges.

  In response to our draft report, the Chief Financial Officer concurred with our
  recommendations. We consider the proposed actions to be responsive and will close the
  recommendations upon completion and verification of the corrective actions.
  Management’s full response is reprinted in Appendix C.




REPORT NO. IG-13-020                                                                             vii
JULY 18, 2013




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objective ___________________________________________ 7

  RESULTS
      Improvements Needed to Policies and Procedures Relating to
        Partner Contributions _______________________________ 8
      Conference Guidance Needs Updating to Accurately Report and
        Control Costs _____________________________________ 14

  APPENDIX A
      Scope and Methodology _______________________________ 21
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 24

  APPENDIX B
      NASA Conferences Reported to Congress _________________ 25

  APPENDIX C
      Management Comments ______________________________ 27

  APPENDIX D
      Report Distribution ___________________________________ 31




REPORT NO. IG-13-020
JULY 18, 2013




                                                                                   INTRODUCTION


Background

  NASA hosts, sponsors, and participates in conferences attended by contractors, industry
  partners, employees of other Federal agencies, and the public. From October 2010
  through September 2012, NASA sponsored or co-sponsored 43 conferences for which the
  associated costs per conference exceeded $20,000. Overall, NASA reported spending a
  total of $8.6 million for these 43 conferences.7

  For this audit, we reviewed four conferences on which NASA expended more than
  $500,000 – the 2012 PM (Project Management) Challenge in Orlando, Florida; the 2011
  IT (Information Technology) Summit in San Francisco, California; the 2011 PM
  Challenge in Long Beach, California; and the 2010 International Symposium on the
  A-Train Satellite Constellation in New Orleans, Louisiana. We performed a detailed
  examination of the 2011 IT Summit, including the planning process; site selection;
  transportation, lodging, meal, and other costs; and funding relationships with external
  partners and identified issues that required further review. We then examined the other
  conferences for similar issues.

  Partner Sponsorships and Relationships. NASA sometimes partners with outside
  entities or other Federal agencies on conferences. Partners may co-sponsor a conference,
  contribute funds, or host events associated with but not officially part of a conference
  (“co-located” events). Co-located events may include exhibit halls, receptions, or meals
  for conference attendees, and the hosts of these events may solicit donations from other
  outside entities to help fund the events.

  No single definition of “co-sponsorship” is applicable throughout the Executive Branch.
  According to the U.S. Office of Government Ethics, commonly accepted indicators of a
  co-sponsored conference include both parties having a mutual interest in the conference
  and sharing key planning decisions.8 NASA policy does not define co-sponsorship, but
  lists factors that determine whether the Agency considers itself a conference sponsor.9
  Specifically, NASA considers itself a sponsor if it funds certain types of conference-
  related expenses such as facility rental or presentation costs.


  7
      Reported costs include NASA employee travel, facility rental, support contracts, food and beverage, and
      audiovisual support.
  8
      U.S. Office of Government Ethics, “A Collection of Federal Resources Relating to Conferences,”
      (September 2012). The 2012 guidance replaced an earlier guide in effect when NASA planned and held
      the conferences we examined in this audit. However, the guidance on co-sponsoring relationships did
      not change significantly between the two documents.
  9
      NID 9700.1, “NASA Conference Approval and Reporting,” Section 7.3.5, January 2013.



REPORT NO. IG-13-020                                                                                            1
                                                                                                  INTRODUCTION



    At the time NASA was planning the four conferences we reviewed, Agency policy
    required consultation with the NASA Office of the General Counsel (OGC) and Office of
    the Chief Financial Officer (OCFO) when outside entities would be contributing funds to
    a NASA conference (co-sponsoring) or to a particular event such as a reception or a
    presentation at a NASA conference. However, the policy did not speak directly to
    consultation regarding co-located events. In January 2013, NASA revised its policy to
    extend the consultation requirement to co-located and other “complimentary activities.”10

    Fiscal and Ethical Considerations. As a general matter, absent congressional approval
    Federal agencies may not use funds derived from an outside source to finance the
    operation of their programs beyond the level established by appropriation, and doing so
    may constitute a violation of the Antideficiency Act.11

    NASA has authority under the National Aeronautics and Space Act of 1958 to accept
    unsolicited and unconditional gifts and donations of services, money, and property.12
    Pursuant to this authority, NASA established policies related to the acceptance of
    monetary gifts and property, which require consultation with OGC and OCFO. As noted
    above, with regard to conferences, NASA requires consultation with OGC and the OCFO
    about potential co-sponsorship of NASA events.

    In addition to rules regarding acceptance of gifts and donations by NASA, there are also
    rules governing the acceptance of gifts from outside sources by NASA employees.13
    Specifically, unless an exception applies, employees may not accept gifts given because
    of their official positions or from “prohibited sources” – that is, persons or organizations
    seeking official action by, doing business or seeking to do business with, or regulated by
    the employees’ agency, or that have interests that may be substantially affected by
    performance or nonperformance of the employees’ official duties.14 Accordingly, co-
    located events paid for by outside entities that include meals and receptions can raise
    ethical issues for NASA employees who attend.

    Two exceptions to the gift rule have potential application to co-located events at NASA
    conferences. First, employees may accept gifts with a market value of $20 or less
    provided that the total value of gifts from the same person or organization is not more

    10
         NID 9700.1, “NASA Conference Approval and Reporting”, Section 7.4.6, January 2013.
    11
         Among other things, the Antideficiency Act prohibits federal employees from making or authorizing an
         expenditure from any appropriation in excess of the amount available in the appropriation unless
         authorized by law, 31 U.S.C. § 1341(a)(1)(A), or from making obligations or expenditures in excess of
         the amount permitted by agency regulations. 31 U.S.C. § 1517(a). In accordance with 31 U.S.C. § 1351,
         the Administrator will report all relevant facts and actions taken to the President and Congress for any
         confirmed violations of the Antideficiency Act investigated by the OCFO.
    12
         NASA Policy Directive 1210.1G, “Acceptance and Use of Monetary Gifts and Donations,” April 28,
         2010.
    13
         5 C.F.R. Part 2635, “Standards of Ethical Conduct for Employees of the Executive Branch.”
    14
         The U.S. Office of Government Ethics website summarizes Federal standards on gifts and outside
         payments such as Standards of Conduct, 5 C.F.R. Part 2635, Subpart B. Retrieved from
         http://www.oge.gov/Topics/Gifts-and-Payments/Gifts---Payments/.



2                                                                                        REPORT NO. IG-13-020
INTRODUCTION



  than $50 in a calendar year. Second, employees may accept gifts of free attendance at
  what are known as “widely attended gatherings” (WAG) provided that the agency has
  determined that their attendance at the gathering is in the agency’s interest and a large
  number of people with common interests but diverse perspectives are expected to attend.

  At NASA, the OGC or Center Chief Counsel’s office determines whether a particular
  event qualifies as a WAG. These offices also advise employees regarding the value of
  any gift to attendees and make recommendations whether employees may attend
  particular events without violating the Federal gift rules. Examples of past events NASA
  counsel deemed WAGs include:

       •   Space Policy Institute Dinner held in March 2012 to discuss university space
           research using small satellites, suborbital launch vehicles, and balloons. This
           dinner was open to approximately 160 people, including representatives of
           Congressional offices, NASA, other Federal agencies, academia, and industry.

       •   Space Transportation Associations Reception held in March 2012 to celebrate the
           100th anniversary of the birthday of Dr. Wernher von Braun, chief architect of the
           Saturn V Moon Rocket and first director of the Marshall Space Flight Center. This
           event was open to approximately 300 people, including representatives of the
           Executive Office of the President, Congressional offices, NASA, Department of
           Defense, the aerospace industry, and the media.

  The OGC’s evaluation begins with a set of standard questions inquiring about the event’s
  purpose, estimated cost, and number and type of attendees as well as whether attendees
  will receive any merchandise. If the OGC determines that the WAG exception applies,
  NASA employees may attend the event without fear of violating the gift rule. If the
  WAG exception does not apply and the value of attending is more than $20, any
  employee who attends must reimburse the sponsoring organization for the estimated
  value of the gift. Reimbursement to the sponsoring entity is often provided by depositing
  a check or cash into an “honor basket” at the event.

  Scrutiny of Federal Conference Spending. Federal agency conferences have received
  increased scrutiny over the past several years from Federal audit offices, the Office of
  Management and Budget (OMB), and Congress. In September 2011, following an audit
  by the Department of Justice Office of Inspector General (OIG) focusing on conference
  spending, OMB issued Memorandum 11-35, “Eliminating Excess Conference Spending
  and Promoting Efficiency in Government.” 15 This memorandum from OMB directed
  Federal agency executive heads to conduct a thorough review of the policies and controls
  associated with conference-related activities and expenses to mitigate the risk of
  inappropriate spending practices with regard to conferences.

  In response to OMB Memorandum 11-35, NASA implemented a policy in September
  15
       U.S. Department of Justice, OIG, “Audit of Department of Justice Conference Planning and Food and
       Beverage Costs,” (Report No.11-43, issued September 2011, revised October 2011).



REPORT NO. IG-13-020                                                                                       3
                                                                                                   INTRODUCTION



    2011 requiring the review and approval of all conference activity equal to or greater than
    $100,000. Additionally, in June 2012 the NASA Executive Council decided that NASA
    policy regarding conferences should be changed, including expanding the definition of
    reportable conferences, requiring higher levels of approval for all but the smallest
    conferences, prohibiting NASA-purchased food, minimizing planning trips, and requiring
    re-approval if conference costs escalate by more than 25 percent. NASA certified to
    OMB in November 2012 that appropriate policies and controls were in place to mitigate
    the risk of inappropriate spending practices.

    In April 2012, the General Services Administration OIG issued a report that found
    excessive costs, improper contracting procedures, and other issues with a 2010 General
    Services Administration conference.16 Following release of this report, the U.S. House of
    Representatives’ Committee on Oversight and Government Reform requested data from
    Federal agencies concerning the cost and frequency of agency-funded conferences as far
    back as 2005, and Senator Tom Coburn requested data on conferences held during the
    past 3 years. (See Appendix B for a summary of NASA’s reporting pursuant to these
    requests.)

    During the same period, we have reported on issues at NASA related to managing the
    costs of and abiding by numerous requirements applicable to conferences.17 In response,
    NASA has made improvements to its conference policies and procedures. For example,
    in July 2010, NASA required conference planners to provide additional justification if the
    cost of meals provided at a conference will exceed General Services Administration-
    approved per diem rates or if the cost of snacks will exceed 33 percent of the daily meals
    and incidental expense allowance.

    In January 2013, NASA issued further guidance regarding conferences reflecting the
    Executive Council’s decision, including:

         •   a requirement that the Deputy Administrator approve any conference with projected
             costs in excess of $100,000, inclusive of travel costs;

         •   a requirement that officials-in-charge approve any increase in actual costs over
             planned costs greater than 25 percent;18



    16
         U.S. General Services Administration, OIG, “Public Buildings Service 2010 Western Regions
         Conference,” (April 2012).
    17
         NASA OIG, “Final Memorandum on the Analysis of Fiscal Year 2009 NASA-Sponsored Conferences,”
         (IG-10-009, March 2010); “Opportunities to Improve the Management of the Space Flight Awareness
         Honoree Launch Conference Event (IG-09-017, July 2009); “Required Registration Fee for the 2008
         NASA General Counsel Conference,” (IG-09-010, January 2009); and “NASA’s Conference Planning
         Process Needs Improvement” (IG-09-002, October 2008).
    18
         Officials-in-charge include senior staff in the Office of the Administrator, the Associate Administrators
         of the Mission Directorates, and the Inspector General as noted in NASA Procedural Document 1000.3D,
         “The NASA Organization,” June 11, 2013.



4                                                                                         REPORT NO. IG-13-020
INTRODUCTION



       •   a prohibition on the use of appropriated funds to purchase food except for awards
           ceremonies, training, and, when appropriate, food paid for through the Official
           Representational Fund;19 and

       •   a prohibition on the issuance of WAG determinations for co-located events at
           NASA-sponsored conferences.20

  The revised guidance did not address conference planning trips.

  On February 27, 2013, OMB released guidance concerning implementation of
  sequestration across the Federal Government.21 As part of this guidance, OMB directed
  agencies to provide heightened scrutiny of conference spending. In response, NASA
  placed additional restrictions on conference spending, including limiting Agency
  sponsorship only to conferences deemed mission critical.

  Congressional Reporting Requirements. The Consolidated and Further Continuing
  Appropriations Act, 2012 (Public Law 112-55) requires NASA to submit quarterly
  reports to the OIG on costs and contracting procedures for fiscal year (FY) 2012 Agency-
  sponsored conferences exceeding $20,000. For each such conference, NASA must report
  the purpose of the conference and provide information on the number of attendees, a
  detailed statement of costs, and a description of the contracting procedures used to carry
  out the event, including whether NASA awarded contracts on a competitive basis and
  discussion of any cost comparisons conducted. Senate Report 112-78, adopted as part of
  the Conference Report to Public Law 112-55, required the OIG to audit NASA
  conference spending.

  NASA’s Conference Reporting Process. NASA’s conference reporting process begins
  at the planning stage. Employees prepare NF 1784, “NASA-Sponsored Event Approval,”
  which provides the approving official with information to evaluate the decisions and
  costs associated with a planned conference. The form contains information such as the
  purpose of the conference, estimated number of attendees for whom NASA will pay
  travel expenses, the conference location, and cost estimates. At the conclusion of a
  conference, the responsible office has 45 days to submit a completed NF 1785, “NASA
  Sponsored Conference Reporting,” that includes a summary of the conference’s actual
  costs and attendance and other related information. On a quarterly basis, the Policy
  Division of the OCFO reviews the completeness and mathematical accuracy of the
  conference reporting forms. NASA provides a summary of the conference reports for the
  quarter along with the conference report submissions to the OIG.

  19
       The Official Representational Fund contains appropriated funds to pay expenses of NASA and non-
       NASA individuals attending official reception and representational events characterized by a mixed
       ceremonial, social, and business purpose. Expenses that may be covered include food, beverages,
       entertainment, and presentation items. For FY 2013, $63,000 was set aside for the fund.
  20
       NID 9700.1, “NASA Conference Approval and Reporting,” January 31, 2013.
  21
       OMB Memorandum 13-5 “Agency Responsibilities for Implementation of Potential Joint Committee
       Sequestration,” February 27, 2013.



REPORT NO. IG-13-020                                                                                        5
                                                                                             INTRODUCTION



    As discussed above, NASA has made substantial changes to its policies and procedures
    regarding conferences in response to previous OIG audits and OMB requirements. For
    this audit, we reviewed four conferences on which NASA expended more than $500,000.
    All of those conferences were planned and took place before many of the policy changes
    outlined above were implemented. Based on that review, we found areas in which we
    believe NASA can further improve its conference-related policies and procedures. We
    describe the specific conferences we examined in Table 1.

                                      Table 1: Conferences Examined
    Conference Title and                Conference                           Total         Total Cost
                                                              Location
    Summary                                 Dates                          Attendees        Reported
                                      February 22-23,
    2012 PM Challenge                                       Orlando, FL       883          $537,623a
                                            2012
      Provided a forum to discuss a wide range of project management-related topics with the objective
      of instilling a spirit of collaboration through shared experiences.
                                       August 15-17,
    2011 IT Summitb                                      San Francisco, CA   1,786        $1,291,889c
                                            2011
      Provided a forum for NASA’s IT workforce and the broader IT community to address IT
      innovation. A similar conference was held in FY 2010 in the Washington, D.C., area.
                                       February 9-10,
    2011 PM Challenge                                     Long Beach, CA     1,537        $1,648,880
                                            2011
         Same objectives and purpose as the 2012 PM Challenge.
    2010 International
                                     October 25-28,
    Symposium on the A-Train                             New Orleans, LA        650          $578,104
                                          2010
    Satellite Constellation
      Provided an opportunity for the research community to learn about the Afternoon Constellation
      (A-Train) – a group of satellites with an array of advanced remote sensing instrumentation used
      to better understand the Earth’s changing climate and environment.
     Source: NASA.
     a
      The 2012 PM Challenge conference was approved for an estimated cost of $1.1 million. However, the
     number of NASA-funded travelers permitted to attend was reduced from 1,170 to 260 and this accounted
     for the large decrease in costs compared to the 2011 PM Challenge.
     b
       Costs and resources from the 2011 IT Summit were shared with the NASA Education Blast-Off, IT
     working group meetings, and the TEDxNASA @ Silicon Valley – 2011 Extreme Green event. The
     Education Blast-Off gathered more than 200 middle and high school age children for presentations and
     events designed to interest them in science, technology, engineering, and math. At the Extreme Green
     event, about 600 people attended presentations with an environmental theme. The week ended with
     approximately 22 NASA working group meetings. Costs for these three events were co-mingled for
     reporting purposes as some participants attended multiple events.
     c
       The table includes expenditures as reported by NASA. As described later in this audit, we found that
     NASA did not report certain costs associated with the 2011 IT Summit. When these items are included,
     the total cost of that conference rises to $1.97 million.




6                                                                                    REPORT NO. IG-13-020
INTRODUCTION



  NASA was the sole sponsor of these four conferences. However, the National Institute of
  Aerospace Foundation (NIA Foundation, NIA, or Foundation) paid for several events at
  the 2011 IT Summit.22 Specifically, the Foundation collected approximately $322,000 in
  donations from vendors to coordinate an exhibit hall in which vendors demonstrated their
  products and services to conference attendees and to pay for two receptions and two
  luncheons and wireless internet services at the conference. The Foundation also collected
  various in-kind donations used at the conference including a media wall and handheld
  media devices.


  Objective

  The overall objective of our audit was to determine whether NASA complies with
  Federal and Agency requirements for planning, conducting, and reporting on NASA-
  sponsored conferences. See Appendix A for details of the audit’s scope and
  methodology, our review of internal controls, and a list of prior coverage.




  22
       NIA Foundation is the philanthropic arm of the National Institute of Aerospace, a not-for-profit research
       and education institute created to conduct leading-edge aerospace and atmospheric research, develop new
       technologies for the nation, and help inspire the next generation of scientists and engineers.



REPORT NO. IG-13-020                                                                                               7
                                                                                        RESULTS




                               IMPROVEMENTS NEEDED TO POLICIES AND
                                   PROCEDURES RELATING TO PARTNER
                                                    CONTRIBUTIONS
           We found that NASA generally complied with Federal and Agency requirements in
           connection with the four conferences we reviewed. However, we noted several
           issues with the 2011 IT Summit related to the way NASA handled the contributions
           made by the NIA Foundation. Specifically, we question whether NASA augmented
           its appropriation by accepting donations from the Foundation without following
           Agency procedures governing acceptance of gifts from outside parties. In addition,
           we found that conference planners inappropriately excluded service costs and tax
           associated with the awards luncheon when calculating the value of the meal to
           NASA employees, and that therefore the lunch did not fall within the exception to
           federal ethics rules allowing the acceptance of gifts with a value of $20 or less.


NASA May Have Augmented its Appropriations at the 2011 IT
 Summit

    Donations of goods and services by outside entities can lead to an augmentation of an
    agency’s appropriations and a violation of the Antideficiency Act unless they are
    authorized under a gift acceptance statute or other statutory authority. NASA has
    authority to accept unconditional gifts and donations of services, money, and property
    under the National Aeronautics and Space Act of 1958. Pursuant to this authority, NASA
    established policies related to the acceptance of monetary gifts and property. At the time
    NASA was planning the 2011 IT Summit, Agency policy directed conference planners to
    consult with OGC and the OCFO about potential contributions from outside entities to
    NASA events, but did not clearly provide that consultation was required for events such
    as the luncheons and receptions the NIA paid for at the 2011 IT Summit.

    Relationship with NIA Foundation. NASA planned the 2011 IT Summit with the
    Agency as the sole sponsor and the NIA Foundation’s role limited to hosting co-located
    events. When NASA was planning the Summit, Agency policy did not speak to the roles
    and responsibilities of partners that plan, manage, and fund co-located events. Therefore,
    NASA did not execute a memorandum of understanding or other agreement with the NIA
    Foundation relating to its activities for the Summit.

    Although the NIA Foundation was not involved in the substantive development of the
    conference, NIA personnel regularly participated in conference planning meetings.
    During these meetings, Foundation personnel identified items or events NASA planning
    officials said they would like to have at the conference but could not fund on their own
    and NIA personnel sought donations to cover the costs of these items or events.
    Specifically, the Foundation obtained donations from vendors, coordinated the exhibit
    hall, and funded several receptions and luncheons for conference attendees. NASA hired


8                                                                         REPORT NO. IG-13-020
RESULTS



  a contractor to help plan the 2011 IT Summit and required this conference planner to
  work with the NIA Foundation to coordinate the co-located events and to arrange space
  for the events and vendors in the exhibit hall.

  Awards Luncheon and Other NIA Foundation Donations. At the 2010 IT Summit,
  NASA held an awards luncheon paid for with Agency appropriations. For the 2011 IT
  Summit, NASA decided not to fund a similar event. However, the NIA Foundation
  offered to sponsor an awards luncheon using donations collected from exhibit hall
  vendors. Apart from paying for the meal, the Foundation had no other involvement in the
  luncheon; NASA selected the awardees, paid for award plaques and the awardees’ travel
  expenses (approximately $5,000), and planned and managed the ceremony.

  In addition, the NIA Foundation collected and coordinated cash donations of $322,000
  and in-kind donations from outside vendors at the 2011 IT Summit. For example, the
  Foundation coordinated a donation of $20,000 from Cisco Systems to fund wireless
  internet services for the conference, as well as in-kind donations of a media wall,
  handheld media devices used during several sessions, and small novelty items such as
  lanyards and gift bags. The media wall enabled attendees to receive Twitter feeds, watch
  live coverage of the sessions, and see conference schedules and announcements. The
  handheld media devices – which were returned after the conference – enabled attendees
  to respond to questions posed during conference sessions.

  NASA’s conference policy in effect at the time of the 2011 IT Summit prohibited
  employees from entering into arrangements with outside entities for sponsorship of meals
  or other contributions to NASA events without prior consultation with the CFO and
  Agency legal personnel, but did not speak directly to the issue of partner-sponsored co-
  located events. The 2011 IT Summit steering committee members did not consult with
  the OGC or OCFO about NIA’s contributions to the Summit. We believe this occurred
  because the steering committee members viewed the awards luncheon and other meals
  and receptions NIA paid for as NIA events rather than NASA events and did not interpret
  NASA policy to require consultation under such circumstances. In January 2013, NASA
  clarified its policy to make clear that the consultation requirement applies to
  “complimentary activities” like the NIA events.23

  Immediately following the 2011 IT Summit, NASA held the TEDxNASA @ Silicon
  Valley – 2011 Extreme Green event at the same hotel. NASA hired the NIA Foundation
  as the conference planner for this event. The Foundation’s contract stated that it would
  lead the effort to secure donations and in-kind contributions from sponsors, and the
  Foundation collected cash donations of $10,000 and additional in-kind donations.
  However, according to NASA policy, event planners cannot collect donations without
  prior approval of NASA counsel, which we found did not occur.



  23
       NID 9700.1, “NASA Conference Approval and Reporting,” Section 7.4.6, January 2013.



REPORT NO. IG-13-020                                                                         9
                                                                                                            RESULTS



Receptions and Meals Paid for by Outside Entities Present
  Opportunities for Inappropriate Gift Acceptance by NASA
  Employees

     With certain limited exceptions, NASA employees may not accept gifts from prohibited
     sources or gifts given as a result of their official positions. Accordingly, co-located
     events that include meals and receptions can raise ethical issues for NASA employees.
     For the most part, employees may attend such events free of charge if the market value is
     $20 or less or NASA attorneys have determined the event qualifies as a WAG.

     The NIA paid for four co-located events at the 2011 IT Summit with funds it raised from
     outside entities: the Chief Information Officer (CIO) Reception, the IT Summit
     Reception, the Pearls of Wisdom Luncheon, and the IT Summit Awards Luncheon.24
     Agency ethics officials determined that the Summit Reception and the Pearls of Wisdom
     Luncheon qualified for the WAG exception but the CIO Reception and the Awards
     Luncheon did not. In addition, based on information provided by conference planners,
     OGC placed the value of the Awards Luncheon at less than $20 per person. As a result,
     OGC advised that NASA employees could attend the Summit Reception, the Pearls of
     Wisdom Luncheon, and the Awards Luncheon free of charge consistent with Federal gift
     rules and that employees who attended the CIO Reception and consumed more than $20
     worth of food and beverages should reimburse the sponsors for the full cost of what they
     consumed. The OGC posted memoranda reflecting this advice on a website available to
     NASA employees. Table 2 summarizes the determinations made by the OGC for each of
     the four events.

                            Table 2: Summary of Agency Ethics Determinations
                        Event                          WAG                           Gift Rule
          CIO Reception – Sunday, August                No                             Yes
          14, 2011
          NASA IT Summit Reception –                    Yes                             No
          Monday, August 15, 2011
          Pearls of Wisdom (Women in                    Yes                             No
          Aerospace) Luncheon – Tuesday,
          August 16, 2011
          NASA IT Summit Awards                         No                    Yes; cost is under $20.
          Luncheon – Wednesday, August
          17, 2011
     Source: NASA.

     Factors Considered for Determinations. To determine the value of gifts from outside
     sources, employees are required to use “market value,” which is defined in the gift


     24
          In addition to other expenses, the NIA Foundation hired and paid for professional entertainment for the
          IT Summit Reception, including a group that performed a “flash mob” dance sequence. NIA paid $750
          for the dance group.



10                                                                                         REPORT NO. IG-13-020
RESULTS



  regulations as “the retail cost the employee would incur to purchase the gift.”25 The
  standard questions OGC poses to evaluate events inquire about the per-person cost of
  food and refreshments but do not reference the “market value” rule.

  Undervaluation of the 2011 NASA IT Summit Awards Luncheon. The IT Summit
  steering committee members and NIA Foundation submitted information on the Awards
  Luncheon to OGC so that Agency lawyers could make a determination regarding
  treatment of the event under federal gift rules. That is, whether the luncheon would
  qualify as a WAG, and if not whether its value met the $20 gift limit. In the initial
  submission, the NIA Foundation listed the cost of the luncheon at approximately $53 per
  person. This figure included food and beverage costs, service charges, and tax.

  OGC advised the 2011 IT Summit conference planners that the luncheon did not qualify
  as a WAG and that therefore employees could accept the meal without reimbursing the
  NIA Foundation only if the meal was worth no more than $20. Thereafter, NIA
  Foundation personnel contacted the hotel and requested adjustments to the menu,
  resulting in a revised cost estimate of $45 per person, which the hotel divided into $22.50
  for food and beverage costs and $22.50 for service charges and tax. NASA’s contract
  planner subsequently contacted the hotel and further negotiated the apportionment of the
  charges to $19.95 for food and beverage and $25.05 for tax and service charges. See
  Table 3.

                   Table 3: Summary of Cost Per Person for Awards Ceremony
       Types of Cost      Estimated Cost      Estimated Cost   Revised Cost for   Actual Cost
                         for Initial WAG       with Revised       Gift Rule        per Hotel
                          Determination           Menu           Evaluation         Receipt
   Food and                       N/A                $22.50        $19.95           $19.95
   Beverage
   Service                        N/A                $22.50          N/A            $25.05
   Charges and
   Tax
   Total Cost                    $52.94              $45.00        $19.95           $45.00
  Source: NASA.

  Note: N/A – the type of cost was not identified.

  Based on this information, a conference steering committee member sent an e-mail to an
  OGC attorney noting the menu had been altered to a gift valued at $20 per person. This
  e-mail did not mention that the hotel would also be charging $25.05 in tax and service
  fees per attendee, and OGC accepted the $19.95 figure without requesting any additional
  information.




  25
       5 C.F.R. § 2635.203(c).



REPORT NO. IG-13-020                                                                            11
                                                                                           RESULTS



     We found that NASA conference planners and NIA Foundation personnel inappropriately
     excluded the tax and service charges from the value of the Luncheon. Although
     conference planners reported all costs associated with the meal to OGC when seeking the
     WAG determination, they subsequently submitted only the revised costs associated with
     the food and beverage component of the meal when the issue was whether the
     Luncheon’s value met the $20 threshold.

     Based on the invoice the NIA Foundation paid, the retail cost of the Luncheon was $45
     per person and therefore the event did not fall within the gift rule exception. However,
     we do not fault the Luncheon attendees who relied in good faith upon the OGC’s advice
     that they could attend the event consistent with their ethical obligations. Rather, we fault
     the planning committee for not providing full cost information to the OGC and OGC
     attorneys for not questioning the basis for the substantial reduction in the cost of the
     meal.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     We recommended that the Chief Financial Officer take the following actions:

        Recommendation 1. Improve conference guidance regarding the process for
        establishing partnering relationships and the appropriate roles of partners in planning
        and managing a conference to limit the risk of an augmentation of appropriated funds.

            Management’s Response. The Chief Financial Officer concurred, stating that
            NASA Interim Directive 9700-1 “NASA Conference Approval and Reporting”
            will be modified to address our concerns prior to its expiration in January 2014.

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the corrective actions.

        Recommendation 2. Work with the Office of the General Counsel to determine
        whether any NIA Foundation contributions to the 2011 IT Summit inappropriately
        augmented NASA’s appropriations and address any issues identified.

            Management’s Response. The Chief Financial Officer concurred, stating that
            her office is working closely with OGC on this issue and that the Agency will
            take appropriate action once a final determination is made.

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the corrective actions.




12                                                                           REPORT NO. IG-13-020
RESULTS



  We recommended that the General Counsel take the following action:

      Recommendation 3. Update the standard questions used to evaluate WAG requests
      to make clear that gifts are valued at the retail cost to the employee and that for meals
      this figure includes food and beverages as well as tax and service charges.

          Management’s Response. The Chief Financial Officer concurred, stating OGC
          has revised its standard questions to clarify that gifts are valued at the retail cost
          to the employee.

          Evaluation of Management’s Response. Management’s proposed actions are
          responsive; therefore, the recommendation is resolved and will be closed upon
          verification of the corrective actions.




REPORT NO. IG-13-020                                                                               13
                                                                                                          RESULTS




                                  CONFERENCE GUIDANCE NEEDS UPDATING TO
                                    ACCURATELY REPORT AND CONTROL COSTS
                NASA has improved its conference guidance in recent years, but we found
                shortcomings related to the 2011 IT Summit that show the Agency could benefit
                from further guidance. Specifically, we found that Agency officials underreported
                costs associated with the 2011 IT Summit by failing to include the cost of contractor
                travel paid by NASA and certain “other” costs. We also found that the Agency’s
                cost tracking processes cannot account for all conference-related costs and that
                planners did not consistently conduct required cost comparisons of possible
                conference sites. Finally, we found significant differences between planned and
                actual costs for the 2011 Summit.


Reported Conference Costs Were Underreported

     To compile costs for a conference, the responsible office submits a NF 1785, “NASA
     Sponsored Conference Reporting,” to the NASA Shared Services Center. The form
     includes a summary of the conference’s actual costs and attendance, support for data
     reported, and related information. The cost categories included on the form are travel
     costs, facility rental, conference support contract, food and beverages, audiovisual
     support, and other expenses.

     NASA estimated the 2011 IT Summit would cost $1,176,307, and at its conclusion
     reported actual costs of $1,291,889, a difference of approximately $116,000. However,
     we found that NASA did not include in the estimated cost figure $548,209 incurred by
     contractors who attended the event and billed NASA for their attendance and travel costs
     and separately an additional $128,439 in miscellaneous expenses.26 Including these
     additional expenses raises the total cost of the 2011 IT Summit to $1.97 million – 52
     percent more than the amount originally reported and 67 percent more than the original
     cost estimate. The unreported costs related to the 2011 IT Summit are detailed in
     Table 4.




     26
          We requested NASA provide the costs of its contractors’ attendance at the conference. The estimate
          provided included travel and labor costs.



14                                                                                       REPORT NO. IG-13-020
RESULTS



                Table 4: Additional Costs Paid by NASA for the 2011 IT Summit
      Additional Costs                                                                          Amount
      Costs Billed to NASA by Contractors to Attend the Summit                                 $548,209
      Other Costs
         Purchase Card Transactions                                                               2,006
         Exhibits & Working Groupsa                                                              62,589
         Pre-conference Travel Costsb                                                            63,844
      Total Underreported Costs                                                                $676,648
  Source: NASA.
  a
      The NASA IT Community has 22 working groups that meet throughout the year. The groups were
      encouraged to hold one of those meetings in conjunction with the 2011 IT Summit.
  b
      These costs include airfare, hotel, meals and incidental expenses, and transportation.

  Contractor Attendance Cost. NASA conference planners reported that 606 contractors
  and 489 civil servants attended the 2011 IT Summit. The OCFO estimates that the total
  costs (labor and travel) billed to NASA by the contractor attendees was $548,209.

  Federal regulations define conference costs as “all direct and indirect conference costs
  paid by the Government, whether paid directly by agencies or reimbursed by agencies to
  travelers or others associated with the conference.” However, NASA guidance does not
  require planners to include costs associated with Agency contractors’ attendance, except
  for the costs of conference support services contractors. According to NASA, system
  limitations and the expense of reporting this information makes it difficult for conference
  planners to collect and report such costs. However, when large numbers of contactors
  attend a NASA conference – as was the case for the 2011 IT Summit – exclusion of this
  information masks the full cost borne by NASA to hold the conference.

  Other Conference Costs. NASA guidance does not specify what types of costs are to be
  included in the “other” costs line on the NF 1785. We found that the cost of 12 planning
  trips was not included in planned or reported costs for the 2011 IT Summit. The trips,
  totaling $63,844, included one scouting trip to San Francisco to select the meeting site
  and discuss lessons learned from the 2010 IT Summit and several other trips to San
  Francisco; Washington, D.C.; and the Jet Propulsion Laboratory in Pasadena, California,
  to organize conference logistics after the conference site had been selected. NASA’s
  conference guidance does not address either the appropriate number of planning trips or
  whether the cost of such trips should be included in conference cost totals. From our
  perspective, 12 planning trips are excessive and we believe that the Agency would benefit
  from improved guidance on this issue. See Table 5.




REPORT NO. IG-13-020                                                                                      15
                                                                                                          RESULTS



                                         Table 5: Pre-Conference Trips
                                                            Number of         Attendees with
         Pre-Conference Meetings                                                                         Costsa
                                                              Trips            Travel Costs
         2010 Lessons Learned Meeting in San
                                                                  1                  8                  $13,947
         Francisco
         Washington, D.C.                                        6                   15                  28,511
         Jet Propulsion Laboratory                               3                    4                   8,110
         Other San Francisco trips                               2                    6                  13,276
         Totals                                                  12                  33                 $63,844
     Source: NASA.
     a
          As some of the trips had multiple purposes, we estimated the amounts applicable to the 2011 IT Summit.

     In our judgment, NASA should develop guidance that addresses the issue of the
     appropriate number and cost of conference planning trips. While a visit to potential
     conference sites is often appropriate in the planning stage, once a site is chosen we
     believe much of the follow-up planning can be accomplished using e-mail and telephone
     or video conferencing meetings.

     NASA also did not include in its totals for the 2011 IT Summit some of the costs
     associated with the exhibit hall and with obtaining space for the 22 Office of the Chief
     Information Officer working group meetings that followed the formal conference. While
     many of the costs for the working group meetings and exhibit hall space were reported,
     $62,589 in related costs were not due to the manual process used by the 2011 IT summit
     steering committee to collect cost information. Using manual processes to collect costs is
     inefficient, lacks controls to determine completeness and accuracy, and increases the
     chances of incomplete reporting. NASA also did not report $2,006 in purchase card
     expenses for computer hardware and hotel shipping charges. Most of these costs were
     incurred directly by NASA Centers and not the Office of the Chief Information Officer.

     In an effort to respond to our concern, in January 2013, NASA issued an interim directive
     that provides examples of “other costs” and directs employees to use a particular code to
     track and collect non-travel costs within the Agency’s financial system. Costs listed in
     the directive include expenses associated with developing conference materials and
     exhibits, facility rental, sponsorship fees, and paid for support service contractors. These
     efforts should help address many of the unreported costs we identified.

Significant Differences between Planned and Actual Expenses

     NASA has a process to formally review and approve projected conference costs during
     the planning stage.27 Planners estimate costs and receive approval from a senior
     executive within the sponsoring organization at least 30 days before the start of the




     27
          NF 1784, “NASA-sponsored Event Approval.”


16                                                                                        REPORT NO. IG-13-020
RESULTS



  event.28 We found that NASA had no formal process in place when we began our review
  to evaluate significant increases in planned costs once the approving official signed off
  on the initial estimate. On January 31, 2013, NASA issued interim guidance requiring
  re-approval of planned expenses when total costs increase by more than 25 percent from
  the approved estimate.

  For the 2011 IT Summit, NASA reported actual costs of $1.29 million, which represents
  a 10 percent increase from the approved estimated cost. Table 6 summarizes the planned
  costs and actual expenses for the 2011 IT Summit.

          Table 6: Differences between Planned and Actual Costs for the 2011 IT Summit
                  Costs                     Planned        Actual Amount          Difference           Percent
                                            Amount                                                     Change
  Travel Costs                               $974,938              $688,316        ($286,662)        29% decrease
  Non-Travel Costs
    Food and Beverage                               $0               $96,664           $96,664
    Audiovisual                                      0               279,275           279,275
    Facility Rental                            133,590                     0         (133,590)
    Other (incl. Conference                     67,779               227,634           159,855
    Support Contract)
   Non-Travel Costs Total                    $201,369             $603,573           $402,204 200% increase
  Total Conference Costs                    $1,176,307           $1,291,889          $115,542 10% increase
  Reported
  Source: NASA.


  NASA’s travel costs estimate was based on 440 civil servants and other non-government
  attendees with NASA paid travel at an average cost of approximately $2,216 per person.
  Travel costs included transportation, lodging, and meals and incidental expenses.
  However, 333 individuals with travel paid by NASA attended the conference at an
  estimated average cost of approximately $2,067 per person.29 This reduction in civil
  servant attendees resulted in approximately $287,000 reduction in travel costs compared
  to planner’s initial estimates. However, this savings masked substantial increases in
  non-travel costs that nearly tripled from more than $200,000 to $603,573, primarily due
  to increased costs for audiovisual support and “other” expenses.

  We found no evidence that the estimated number of travelers was intentionally inflated in
  the initial estimate in order to mask increases in other conference costs areas. However,
  having a rule that requires reauthorization only when total costs increase by 25 percent or
  more may allow significant increases in certain expense categories to escape higher-level
  review.

  28
       The aforementioned process was the approval requirement that existed at the time of our examination
       period. NID 9700.1, issued in January 2013, officially changed the reportable conference approval
       requirement to at least 6 months prior to the start of the conference.
  29
       The 333 attendees did not include NASA contractors but rather included NASA civil servants,
       conference support contractors, and awardees.



REPORT NO. IG-13-020                                                                                          17
                                                                                                              RESULTS



     The increase in audiovisual expenses occurred because the conference planners’ original
     plan was that a vendor would donate the necessary equipment and services. It was later
     determined that, due to union rules, the hotel would not allow a third party to provide the
     equipment and services. This resulted in NASA incurring all audiovisual costs for the
     conference, an expense that totaled $279,275. In addition, NASA management initially
     approved a plan that included no food or beverage costs. However, ultimately NASA
     incurred food and beverage costs of $96,664, while facility rental fees were waived.

     Lastly, the substantial increase of $159,855 in “other” costs highlights the need for
     improved conference cost estimating. At event approval, planners estimated $67,779 for
     other expenses, including the conference support contract, supplies, materials, and
     miscellaneous expenses. However, NASA’s “actual” expenses were more than double
     this initial estimate – $81,676 for conference support contract costs and $40,000 for
     expenses related to an online forum. NASA officials attributed much of the increase in
     the conference support contract costs to additional work by the conference planner in
     obtaining meeting space and audiovisual support that NASA had anticipated a vendor
     would provide as well as providing onsite coordinators and security guards.

Planners Failed to Compare Potential Conference Sites

     According to Federal Travel Regulation §301-74.19, an agency must conduct cost
     comparisons among at least three conference sites and maintain a record of that
     comparison.30 Cost comparisons should consider such factors as per diem rates, overall
     convenience of the conference location, fees, availability of meeting space, equipment
     and supplies, and commuting or travel distance and cost for attendees. For three of the
     conferences we examined, NASA eliminated alternative sites from consideration prior to
     completion of a cost comparison.
     According to conference steering committee members at the 2011 IT Summit, NASA’s
     contracted conference planners sent a call for proposal to six facilities in the San
     Francisco area, including Ames Research Center. However, they provided us with no
     documentation of this call. For a variety of reasons – including the inability to provide
     the space necessary to accommodate the number of expected attendees, ongoing
     construction at the site, or lack of response – planners eliminated from consideration all
     sites but the Marriott Marquis where the conference was held. Planners made no
     additional efforts to obtain quotes from sites in either San Francisco or elsewhere.
     It appears to us that planners selected the Marriott Marquis for the Summit without
     seriously considering other alternatives. As part of the planning process, planners held a
     2-day meeting at the Marriott in September 2010 to discuss lessons learned from the 2010
     Summit and begin planning the 2011 conference. About a month after this meeting, and
     without obtaining any other quotes, the Agency Chief Information Officer approved the
     Marriott Marquis as the 2011 conference location and the conference planner signed the

     30
          The term “site” refers to both the geographical location and the specific facility. Accordingly, agencies
          may consider three facilities in the same geographical location or facilities from multiple geographical
          locations.



18                                                                                           REPORT NO. IG-13-020
RESULTS



  sales agreement with the hotel on November 4, 2010. By all indications, NASA’s
  contracted conference planner did not diligently follow the Federal Travel Regulation to
  conduct cost comparisons before selecting the Marriott for the 2011 IT Summit.

  Similar to the 2011 IT Summit, we perceived a lack of diligent effort in selecting the sites
  for the 2012 PM Challenge and the 2010 International Symposium on the A-Train
  Satellite Constellation. Planners eliminated locations from consideration without
  comparing pertinent costs for more than one conference site. Unless they obtain cost
  estimates from more than one potential conference site, NASA conference planners
  cannot ensure they hold conferences at the most cost-effective location.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
  To improve management of costs for NASA-sponsored conferences, we recommended
  that the Chief Financial Officer:

      Recommendation 4. Enhance NASA’s conference guidance by:

       a. providing criteria for and examples of acceptable planning and conference costs,
          including whether travel costs for site selection scouting trips, off-site planning
          meetings, or conference “dry-runs” are acceptable and requiring these estimated
          and actual costs be included on the NF 1784 and NF 1785 forms;

       b. requiring increases of 10 percent or more in specific cost categories above a
          certain threshold be approved by appropriate officials; and

       c. requiring conference planners to obtain quotes from at least three conference
          sites and retain documentation from these cost comparisons.

          Management’s Response. The Chief Financial Officer concurred, stating that
          NASA Interim Directive 9700-1 “NASA Conference Approval and Reporting”
          will be modified to address our concerns prior to its expiration in January 2014.

          Evaluation of Management’s Response. Management’s proposed actions are
          responsive; therefore, the recommendation is resolved and will be closed upon
          completion and verification of the corrective actions.

      Recommendation 5. Develop a methodology for gathering costs billed to NASA for
      contractor employees who attend NASA-sponsored conferences with significant
      contractor attendance.

          Management’s Response. The Chief Financial Officer concurred, stating that
          her office will work diligently with appropriate stakeholders to develop this
          methodology.




REPORT NO. IG-13-020                                                                             19
                                                                                          RESULTS



            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the corrective actions.

Other Matters

     At the 2011 IT Summit, the Marriott Marquis offered and NASA accepted one
     complimentary room for every 50 rooms rented, 25 room upgrades at the government
     rate, and complimentary use of the hotel’s presidential suite. The steering committee
     determined who received the free and upgraded rooms. Ultimately, the Chief
     Information Officer stayed in the presidential suite and other senior NASA managers,
     conference planners and speakers, and individuals who volunteered to help at the
     conference stayed in the other free and upgraded rooms. The presidential suite was also
     used for meetings hosted by the Chief Information Officer and members of the steering
     committee at no additional cost to NASA.

     We found no evidence that NASA incurred any additional expense by accepting the
     upgraded and complimentary rooms. Moreover, we understand that hotels routinely
     provide such rooms at no cost to customers who hold large conferences at their facilities.
     The hotels that hosted the 2012 PM Challenge and the 2010 International Symposium on
     the A-Train Satellite Constellation offered similar concessions.

     In response to our report, the Chief Financial Officer stated that NASA intends to
     develop guidance limiting acceptance of room upgrades by employees who attend
     NASA-sponsored conferences.

     Finally, the Chief Financial Officer noted that the Agency plans to review current
     agreements with contractors or partners involved in planning NASA-sponsored
     conferences to ensure they are appropriate and meet NASA policy requirements and the
     corrective actions the Agency plans to take in response to our recommendations.




20                                                                          REPORT NO. IG-13-020
APPENDIX A




                                                                            APPENDIX A


Scope and Methodology

  We performed this audit from February 2012 through June 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  As of May 2012, NASA provided quarterly reports on conferences with costs exceeding
  $20,000 for FY 2011 and the first and second quarters of FY 2012. Due to the lack of
  availability of data for the third and fourth quarters of FY 2012 at the start of our audit,
  we selected four high-dollar conferences from FY 2011 and the first and second quarters
  of 2012 for which to perform audit procedures:

      •   2011 NASA IT Summit (4th Quarter FY 2011; San Francisco, California; August
          15-17, 2011).

      •   NASA 2011 PM Challenge (2nd Quarter FY 2011; Long Beach, California;
          February 9-10, 2011).

      •   NASA 2012 PM Challenge (2nd Quarter FY 2012; Orlando, Florida; February 22-
          23, 2012).

      •   2010 International Symposium on the A-Train Satellite Constellation (1st Quarter
          FY 2011; New Orleans, Louisiana; October 25-28, 2010).

  Additionally, we also examined the TEDxNASA @ Silicon Valley – 2011 Extreme
  Green event held August 17, 2011. Although this event was not separately reported as a
  conference, we performed limited audit procedures since the costs for the event were
  intermingled with the 2011 IT Summit.

  We obtained an understanding of the Agency conference planning and reporting process
  by conducting interviews with the OCFO, the NASA Shared Services Center, and several
  center conference points of contact. We performed a detailed review of the 2011 IT
  Summit that involved a series of interviews with members of the conference steering
  committee, the conference planners, and the NIA Foundation; review of a sample of
  travel authorizations and vouchers; and a review of invoices supporting conference costs.
  Our review of the other three conferences was limited to areas for which additional audit
  evidence was needed to support conclusions reached from our review of the 2011 IT
  Summit and issues that were specific to that conference.


REPORT NO. IG-13-020                                                                             21
                                                                                        APPENDIX A



     To ensure completeness of our population, we examined the reportable conferences from
     prior fiscal years that appeared to occur annually and determined whether those
     conferences occurred during FY 2011 and in the first and second quarters of FY 2012.
     Additionally, a search of NASA-sponsored conferences was conducted in the NASA
     Conference Tracking System for events whose cost exceeded $20,000 but were not
     reported.

     Regulations, Policies, and Procedures. To determine whether NASA conducted the
     reported conferences in accordance with Federal regulations and NASA policies and
     procedures, we reviewed the following laws, regulations, policies, and procedures:

        •   Public Laws

            o   Public Law 112-55 Section 540, establishes the requirement for NASA to
                submit to the OIG quarterly reports of each conference held by NASA that
                exceeded $20,000 during FY 2012 and what information those reports should
                contain.

            o   Senate Report 112-78, sets the requirement that the OIG continue to audit the
                expenditures of NASA-Sponsored Conferences exceeding $20,000.

        •   Federal Guidance

            o   Federal Travel Regulation § 301.74 “Conference Planning,” sets the Federal
                policies to follow when planning a conference.
            o   Office of Government Ethics, “A Collection of Federal Resources Relating to
                Conferences” (September 2012), replaced the May 2010 guide in effect when
                NASA planned and held the conferences we examined in this audit. However,
                the guidance on co-sponsoring relationships did not change significantly
                between the two documents.
            o   Office of Government Ethics, “Conferences: A Guide for Ethics Officials”
                (May 2010), is a roadmap to authoritative decisions, opinions, directives, and
                instructions that span a variety of conference-related issues for agencies in the
                Executive Branch.
            o   OMB Memorandum 11-35 “Eliminating Excess Conference Spending and
                Promoting Efficiency in Government” (September 2011), communicates the
                government’s initiative to eliminate unnecessary and wasteful spending.
            o   OMB Memorandum 12-12 “Promoting Efficient Spending to Support Agency
                Operations” (May 2012), describes policies and procedures in the area of
                travel and conference expenditures to help agencies reduce costs and improve
                efficiency of operations.




22                                                                           REPORT NO. IG-13-020
APPENDIX A



      •   NASA Policies and Procedures

          o   NID 9700.1, “NASA Conference Approval and Reporting” (January 2013),
              provides the financial management requirements for conference planning,
              approval, attendance, and reporting.

          o   NASA Procedural Requirement (NPR) 9700.1 Chapter 2, “Requirements
              relating to Conference Attendance and Reporting” (effective September 2011,
              cancelled January 31, 2013), set forth requirements for planning and reporting
              conference costs and adhering to foreign conference attendance limits as
              established in the Federal Travel Regulation.

          o   NPR 9700.1 Appendix A, “NASA FTR Supplement” (September 2011),
              addresses matters for which NASA has authority or responsibility to set
              specific policy or establish specific procedures that apply only to NASA and
              matters not covered by the Federal Travel Regulation.

          o   NASA Memo “Planning Agency-Sponsored Events” (November 2005),
              provides guidance on accounting for the fiscal, travel, ethics, and appearance
              issues which must be considered when planning NASA-sponsored events.

  Procurement Information Circular 09-01, “Limitations on Conference related
  Expenditures” (January 2009), provides guidance to NASA center procurement offices to
  ensure contractor compliance with conference expenditure and reporting requirements
  contained in FY 2008 and FY 2009 appropriations and authorizations laws.

  Use of Computer-Processed Data. We obtained our data, including conference
  attendance lists and conference cost summary reports, from NASA. However, we were
  unable to assess the overall completeness and reliability of conference attendance lists
  and conference cost summary reports. We verified the accuracy of this data by tracing
  significant expenses for the conference to receipts and a sample of the attendee’s travel
  receipts to our attendance list and summary reports. Additionally, we performed various
  searches of NASA travel data to identify unreported travelers or incorrect travel expenses
  noting no significant discrepancies. These procedures allowed us to rely on the data
  reported to perform this audit.


Review of Internal Controls

  We identified and reviewed internal controls associated with planning conferences to
  ensure that NASA obtained adequate competition, guidance on fiscal and ethical issues
  were obtained, and management selected the conference site in accordance with Agency
  guidance. We also obtained an understanding of the internal controls associated with the
  accuracy and reliability of travel vouchers. We did not directly test the effectiveness of
  controls associated with conference reporting. The control weaknesses we identified are



REPORT NO. IG-13-020                                                                           23
                                                                                       APPENDIX A



     discussed in this report. Our recommendations, if implemented, will correct the
     identified control weaknesses.


Prior Coverage

     Over the last 5 years, NASA OIG has issued reports of particular relevance to the subject
     of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY12/index.html.

     “Final Memorandum on the Analysis of Fiscal Year 2009 NASA-Sponsored
     Conferences” (IG-10-009, March 23, 2010)

     “Opportunities to Improve the Management of the Space Flight Awareness Honoree
     Launch Conference Event” (IG-09-017, July 27, 2009)

     “Required Registration Fee for the 2008 NASA General Counsel Conference” (IG-09-
     010, January 29, 2009)

     “NASA’s Conference Planning Process Needs Improvement” (IG-09-002, October 29,
     2008)




24                                                                         REPORT NO. IG-13-020
APPENDIX B




                                                   NASA CONFERENCES REPORTED
                                                                 TO CONGRESS


Conferences Reported by NASA to Congress

  On April 10, 2012, the U.S. House of Representatives’ Committee on Oversight and
  Government Reform submitted a request to NASA Administrator, Charles F. Bolden, Jr.
  for data related to the cost and frequency of agency-funded overnight conferences. The
  Committee requested a list of overnight conferences funded by the Agency, attended by
  more than 50 employees, and held outside of the Washington, D.C., area since January 1,
  2005. In its February 8, 2013, response to the congressional request, NASA reported 151
  conferences with costs totaling approximately $35.6 million. The data is summarized in
  Table 7.

                  Table 7: Conference Data reported by Congressional Request
    Calendar Year       Reportable Events            Total NASA-Paid                         Total Cost
                                                        Attendees
         2005                    13                        1,511                             $2,092,001
         2006                    15                        1,708                              2,264,697
         2007                    19                        2,135                              3,060,088
         2008                    21                        2,801                              4,705,757
         2009                    16                        2,821                              4,677,387
         2010                    24                        3,342                              6,722,883
         2011                    25                        4,190                              8,754,142
         2012                    18                        3,733                              3,279,775
         Total                   151                       22,241                           $35,556,730
  Source: NASA.

  Note: The data related to reportable events was retrieved from the OCFO and was not audited by the OIG.




REPORT NO. IG-13-020                                                                                        25
                                                                                                   APPENDIX B



     On April 16, 2012, U.S. Senator Tom Coburn requested conference-related data for
     conferences held during fiscal years 2010, 2011, and 2012. In an effort to learn more
     about and to update information about ongoing costs related to conferences, the Senator
     requested specific items related to travel cost and attendance for conferences held during
     those three fiscal years. In its February 8, 2013, response to the congressional request,
     NASA reported 4,916 reportable events with costs totaling approximately $77.5 million.
     The data is summarized in Table 8.

           Table 8: Conference Reported Data in reply to U.S. Senator Tom Coburn
           Fiscal Year        Reportable Events          Total NASA-Paid                        Total Cost
                                                            Attendees
              2010                    1,823                   14,220                           $30,081,247
              2011                    1,666                   12,971                            28,623,705
              2012                    1,427                   10,906                            18,802,737
              Total                   4,916                   38,097                           $77,507,689
     Source: NASA.

     Note: The data related to reportable events was retrieved from the OCFO and was not audited by the OIG.

     The criteria used to fulfill Senator Coburn’s request included all foreign and domestic
     conferences attended by at least one NASA employee and funded primarily or in part by
     the Agency.




26                                                                                    REPORT NO. IG-13-020
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-020                         27
              APPENDIX C




28   REPORT NO. IG-13-020
APPENDIX C




REPORT NO. IG-13-020   29
              APPENDIX C




30   REPORT NO. IG-13-020
APPENDIX D




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Associate Administrator
  Chief of Staff
  Chief Financial Officer
  Chief Information Officer
  General Counsel
  NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Financial Management and Assurance
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space




REPORT NO. IG-13-020                                                       31
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Michelle Robertson, Project Manager
   GaNelle Flemons, Auditor
   Tekla Szelong, Project Manager
   Amanda Parker, Management Analyst
   Aleisha Fisher, Auditor
   Bruce Schmidt, Management Analyst
   Frank Mazurek, Associate Counsel to the Inspector General – Eastern Region




REPORT NO. IG-13-020                                                            33
                                                                                         JULY 18, 2013
                                                                        REPORT No. IG-13-020




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
